   December 15, 2004




Human Capital
Management of Navy Senior Enlisted
Personnel Assignments in Support of
Operation Iraqi Freedom
(D-2005-024)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
BA                    Billets Authorized
EPMAC                 Enlisted Placement Management Center
MCA                   Manning Control Authority
NMP                   Navy Manning Plan
OIF                   Operation Iraqi Freedom
ROC/POE               Required Operational Capability/Projected Operational
                         Environment
SORTS                 Status of Resources and Training System
USCENTCOM             U.S. Central Command
                             INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                       December 15,2004
MEMORANDUM FOR NAVAL INSPECTOR GENERAL
SUBJECT: Report on Management of Navy Senior Enlisted Personnel Assignments in
         Support of Operation Iraqi Freedom (Report No. D-2005-024)

        We are providing this report for review and comment. Comments from the
Navy were received too late to be considered in preparing the final report. DoD
Directive 7650.3 requires that all recommendations be resolved promptly. Therefore,
if the Navy does not submit additional comments by January 14,2005, we will
consider the comments received as the response to the final report.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audls@,dodi~.osd.mil.Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SJPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Donald A. Bloomer at (703) 604-8863 (DSN 664-8863) or Mr. Richard B.
Vasquez at (703) 604-9174 (DSN 664-9174). See Appendix D for the report distribution.
The team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:




                                       Assistant Inspector ~ i n e r a l
                                   for Readiness and Logistics Support
         Office of the Inspector General of the Department of Defense
Report No. D-2005-024                                                December 15, 2004
  (Project No. D2003LA-0151.001)

      Management of Navy Senior Enlisted Personnel Assignments
              in Support of Operation Iraqi Freedom

                                   Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel who
are responsible for the management of military personnel should read this report. The
report discusses senior enlisted manning deficiencies and how Navy policies and
procedures can be modified to help identify and correct those deficiencies.

Background. During March 2003, the Commander, U.S. Atlantic Fleet and the
Commander, U.S. Pacific Fleet deployed operating forces to the Commander,
U.S. Central Command in support of Operation Iraqi Freedom. This report discusses
manning levels of Navy senior enlisted personnel for 14 units among those forces. Those
14 units were assigned personnel through the manning and distribution processes
established within the Navy Manpower, Personnel, and Training process.

Results. We visited 14 Navy units at 5 locations and evaluated their senior enlisted
manning levels for March 2003 when they deployed in support of Operation Iraqi
Freedom. According to Navy officials, all 14 units met the Navy-required readiness
levels to accomplish their missions. However, senior enlisted manning levels are not
measured when assessing a unit’s readiness level. Four of the units we visited had
deployed with less than 80 percent of their senior enlisted warfighting positions filled.
Specifically, one carrier airborne early warning squadron and three strike fighter
squadrons reported senior enlisted manning levels of 71 percent, 76 percent, 63 percent,
and 72 percent. As a result, personnel in those units were exposed to a higher level of
risk for mishap or injury during their deployment. Senior enlisted manning levels should
be considered in determining a unit’s readiness level. Reviewing and updating Navy
manpower and personnel guidance to clearly define acceptable manning levels, together
with establishing procedures to alleviate senior enlisted manning deficiencies, will help
to optimize personnel manning levels during future deployments and will correct the
management control weaknesses we identified. See the Finding section for the detailed
recommendations.

Management Comments. Comments from the Navy were received too late to be
considered in preparing the final report. If the Navy does not submit additional
comments by January 14, 2005, we will consider the comments received as the response
to the final report.
Table of Contents

Executive Summary                                        i

Background                                              1

Objectives                                              2

Finding
     Manning of Senior Enlisted Warfighting Positions   3

Appendixes
     A. Scope and Methodology                           10
          Management Control Program Review             11
          Prior Coverage                                11
     B. Units Visited                                   13
     C. Strike Fighter Squadron 147                     14
     D. Report Distribution                             16
Background
    Navy Manpower, Personnel, and Training Process. The Navy Manpower,
    Personnel, and Training process helps to ensure Navy readiness by identifying
    and funding manpower requirements, then managing the distribution of personnel
    to meet those requirements. The Office of the Deputy Chief of Naval Operations
    (Manpower and Personnel) is responsible for the administration of the process.

            Manpower. Manpower requirements reflect the minimum quantity and
    quality of manpower required for peacetime and wartime to effectively and
    efficiently accomplish a unit’s mission. The Navy Manpower Analysis Center
    determines manpower requirements for fleet-based units using the required
    operational capability/projected operational environment (ROC/POE). Shore-
    based units determine their own manpower requirements based on their mission,
    function, and task statements.

            The Navy uses the manpower process to determine which requirements
    will be funded. The number of personnel positions that the Navy will fund in a
    given fiscal year is referred to as billets authorized (BA).

             Personnel. Navy personnel who are available for active duty assignment
    to fill BA are referred to as the Navy’s distributable inventory. Distributable
    inventory does not include a category of manpower called “individuals account,”
    which includes military personnel who are not available for assignment. The
    individuals account consists of:

               •   transients who are in a permanent change of station status;
               •   patients, prisoners, and holdees who are dropped from the assigned
                   strength of an operational or training unit for reasons of medical,
                   disciplinary, or separation nonavailability; and
               •   students, trainees, and midshipmen who are active Service officer
                   students, active enlisted students, active enlisted trainees, Service
                   academy midshipmen, and active officer accession students not
                   assigned to a specific unit.

            The Navy Personnel Command allocates distributable inventory to the
    four manning control authorities (MCAs), which are under the Commander,
    U.S. Atlantic Fleet; the Commander, U.S. Pacific Fleet; the Bureau of Naval
    Personnel, commanded by the Chief of Naval Personnel; and the Commander,
    Naval Reserve Force. In the enlisted distribution system, MCAs are tasked with
    determining the quality, quantity, and priority for the assignment of personnel that
    will maintain unit readiness. The MCAs are also tasked with initiating actions to
    correct manning deficiencies.

           Because personnel assets rarely equal manpower requirements, the Navy
    uses Navy Manning Plans (NMPs) to determine an equitable distribution of
    personnel throughout the Navy. The Enlisted Placement Management Center




                                         1
            (EPMAC), within the Navy Personnel Command, develops and maintains an
            NMP for each rating1 within each unit. The MCAs use the NMPs to help ensure a
            prioritized balance (fair share) when assigning personnel from the distributable
            inventory.

            U.S. Central Command. For Operation Iraqi Freedom (OIF), the Navy received
            its mission from the U.S. Central Command (USCENTCOM). USCENTCOM is
            one of nine combatant commands2 and is composed of components from the
            Army, the Navy, the Air Force, the Marine Corps, and the U.S. Special
            Operations Command. The USCENTCOM area of responsibility includes
            25 nations and extends from the Horn of Africa to Central Asia. The Navy
            component of USCENTCOM is the U.S. Naval Forces Central Command,
            headquartered in Manama, Bahrain.

            U.S. Naval Forces Central Command. The Commander, U.S. Naval Forces
            Central Command has operational command and control over all naval operations
            throughout the USCENTCOM area of responsibility. To support a combatant
            commander, the Navy provides operating forces, which can include a Carrier
            Strike Group and an Amphibious Ready Group, as well as other ships and aircraft.
            The groups are formed and deployed on an as-needed basis. The majority of
            naval forces for the USCENTCOM area of responsibility are rotationally
            deployed from either the U.S. Atlantic Fleet or the U.S. Pacific Fleet.


Objectives
            Our overall audit objective was to evaluate the Services’ management of the
            assignment process for military personnel. Specifically, the audit was to evaluate
            whether the assignment process for officers and enlisted personnel was managed
            to minimize the amount of time that essential warfighting positions were vacant,
            to ensure that qualified personnel were assigned to those positions, and to ensure
            that training requirements to fully perform the duties of those positions were
            being met.
            This report addresses the enlisted personnel management process for Navy units
            that deployed in support of OIF and how vacant senior enlisted warfighting
            positions impacted the readiness of deployed forces. We also reviewed the
            management control program as it related to the objectives. Because enlisted
            warfighting positions remained vacant during deployment, the audit objectives to
            determine whether qualified and trained personnel were assigned to those
            positions became moot. This report does not address officer assignments because
            our initial review did not identify areas of concern that warranted additional audit
            work. See Appendix A for a discussion of the scope and methodology, our
            review of the management control program, and prior coverage related to our
            objectives.
1
    Rating is a broad enlisted career field identifying an occupational specialty.
2
    The nine combatant commands are U.S. Northern Command, U.S. Southern Command, U.S. Joint Forces
     Command, U.S. Pacific Command, U.S. European Command, U.S. Central Command,
     U.S. Transportation Command, U.S. Special Operations Command, and U.S. Strategic Command.



                                                          2
                     Manning of Senior Enlisted Warfighting
                     Positions
                     According to Navy officials, the 14 Navy units at the 5 locations visited3
                     had met the Navy-required readiness levels to accomplish their missions
                     when they deployed in support of OIF. However, senior enlisted4
                     manning levels are not measured when assessing a unit’s readiness level.
                     Four of the units had deployed with less than 80 percent of their senior
                     enlisted warfighting positions filled. Those manning levels occurred
                     because Navy policy and procedures lack requirements that would help
                     ensure vacant senior enlisted positions are filled to an acceptable level.
                     Specifically, Navy policy does not:

                               •   clearly define acceptable senior enlisted manning levels,

                               •   require senior enlisted manning deficiencies to be resolved
                                   prior to deployment, and

                               •   require senior enlisted manning levels to be tracked and
                                   reported.

                     As a result, Navy units deployed in support of OIF with vacant senior
                     enlisted warfighting positions, exposing Navy personnel to a higher level
                     of risk for mishap and injury.


Navy Policy and Procedures
            Chief of Naval Operations Instruction 1000.16J, “Manual of Navy Total Force
            Manpower Policies and Procedures,” June 17, 2002, provides policy guidance and
            procedures to develop, review, approve, and implement total force manpower
            requirements and authorizations for Navy organizations.

            Enlisted Distribution Management System. According to Naval Military
            Personnel Manual 1306-100, “Enlisted Distribution Management System,”
            February 28, 2003, the MCAs should measure unit personnel levels to ensure that
            the unit is properly manned in accordance with the NMP and, if personnel
            become available, ensure that the unit is fully manned according to its BA.

            Operational Readiness. Navy Tactics, Techniques, and Procedures 1-03.3,
            “Status of Resources and Training System (SORTS) Joint Report-Navy,”
            Revision A, March 2001, establishes readiness levels to indicate the degree to
            which a unit is capable of undertaking its primary wartime missions. Among
            those levels, C-1 and C-2 denote that a unit is trained and possesses the required
3
    See Appendix B for a list of the units visited and their locations.
4
    Navy senior enlisted personnel are chief petty officers, senior chief petty officers, and master chief petty
    officers (E-7s, E-8s, and E-9s, respectively).



                                                          3
            resources and personnel to undertake the “full” or “most of the” wartime
            mission(s), respectively. According to Navy policy, a unit is adequately manned
            and deployable if it meets the minimum personnel readiness level of C-2.
            Further, Chief of Naval Operations guidance for 2003 was to “achieve
            C-2 manning status for all deploying units at least six months prior to
            deployment.”

            Enlisted Placement Policy. The Commanders of the U.S. Atlantic Fleet and the
            U.S. Pacific Fleet issued a joint letter on “Manning Placement Policy for
            Atlantic/Pacific Fleet Manning Control Authority” (the Fleet Placement Policy),
            December 23, 1997, that requires EPMAC to “balance the needs of the units
            with the current and projected available personnel assets.” The joint letter also
            requires that manning deficiencies that degrade a unit’s mission capability be
            resolved and allows EPMAC to request extraordinary manning actions5 to ensure
            that enlisted positions are filled with qualified personnel. The joint letter also
            directs that deploying units “will be manned to C1 or C2 SORTS readiness
            (minimum of C2) . . . as early in the training/work up cycle as possible (but not
            later than the month of deployment) and maintained throughout deployment.”

             Predeployment Personnel Manning Assistance. The Commanders of the
            U.S. Atlantic Fleet and the U.S. Pacific Fleet issued Instruction 1306.14A,
            “Predeployment Personnel Manning Assistance Report,” April 18, 2001, to
            improve enlisted personnel readiness by providing the means for exchanging
            information between personnel managers and units scheduled for extended
            deployments. The exchange of information also keeps the chain of command
            advised of manning deficiencies and actions being taken to resolve them.


Senior Enlisted Warfighting Positions
            According to Navy officials, the 14 Navy units at the 5 locations visited had met
            the Navy-required readiness levels (C-1 or C-2) to accomplish their missions
            when they deployed in support of OIF. However, because the personnel
            component is measured in the aggregate, a unit may be rated at the C-1 or C-2
            readiness level but have senior enlisted manning levels of less than 80 percent.6
            According to the Navy SORTS guidance:
                    Although aggregation of PRMAR [primary mission area status set]
                    essential personnel may mask degraded mission or resource status, the
                    lack in any area (officer, enlisted, mission essential personnel, aircrew,
                    MSC [Military Sealift Command] personnel) could result in a more
                    serious degradation. Additionally, in isolated instances within a
                    specific PRMAR, over-manning in one area could mask significant
                    deficiencies in another area.


5
    Extraordinary manning actions are personnel actions to correct a unit’s readiness-degrading manning
     deficiency once all other avenues have been exhausted and include alteration of an enlisted member’s
     approved work assignment on either a permanent or temporary basis.
6
    We used 80 percent of BA as an acceptable senior enlisted manning level for purposes of our audit.



                                                        4
Four air squadrons of the 14 Navy units visited deployed with less than 80 percent
of their senior enlisted warfighting positions filled. We determined manning
levels by reviewing manning reports provided by EPMAC for March 2003. The
units were deployed in support of OIF during March 2003. The following table
shows the manning levels of senior enlisted personnel for the 14 units visited.

                           Senior Enlisted Manning Levels
                                  (as of March 2003)
                                 Assigned          Percent            Percent
             Unit                Personnel   BA    of BA     NMP      of NMP

  U.S.S. Princeton (CG 59)          29       30      97       28        104

  U.S.S. Nimitz (CVN 68)           183       213     86      193        95
  U.S.S. Harry S. Truman
                                   194       195     99      177        110
  (CVN 75)
  U.S.S. Fitzgerald (DDG 62)        26       24     108       24        108
  U.S.S. Bonhomme Richard
                                    76       76     100       74        103
  (LHD 6)
  U.S.S. Iwo Jima (LHD 7)           80       78     103       73        110

  U.S.S. Nashville (LPD 13)         24       25      96       24        100

  HS-6                              15       16      94       14        107

  VAW-117                           10       14      71       12        83

  VFA-14                            13       17      76       16        81

  VFA-41                            18       19      95       16        113

  VFA-94                            12       19      63       17        71

  VFA-97                            13       18      72       15        87

  VS-29                             13       16      81       15        87




Carrier Airborne Early Warning Squadron Manning Level. Carrier Airborne
Early Warning Squadron 117 (VAW-117), based at Naval Air Station
Point Mugu, California, has the mission of providing all-weather airborne early
warning, airborne battle management, and command and control functions for the
Carrier Strike Group and the Joint Force Commander. An integral component of
the Carrier Strike Group Air Wing is the E-2C Hawkeye, which uses
computerized equipment to provide early warning and threat analysis against
potentially hostile air and surface targets.




                                         5
    For March 2003, the EPMAC manning report of VAW-117 showed a senior
    enlisted manning level of less than 80 percent of BA. The EPMAC manning
    report showed that the number of senior enlisted BA for VAW-117 was 14 and
    that VAW-117 had 10 senior enlisted personnel (71 percent of BA) as of
    March 2003.

    Strike Fighter Squadron Manning Levels. Strike Fighter Squadrons 14, 94,
    and 97, based at Naval Air Station Lemoore, California, fly the F/A-18 Hornet, an
    all-weather aircraft used as an attack aircraft as well as a fighter. In its fighter
    mode, the F/A-18 is used primarily as a fighter escort and for fleet air defense; in
    its attack mode, it is used for force projection, interdiction, and close-air and
    deep-air support. The newest model, the Super Hornet, is highly capable across
    the full mission spectrum: air superiority, fighter escort, reconnaissance, aerial
    refueling, close-air support, air defense suppression, and day/night precision
    strike capability.

    The March 2003 EPMAC manning reports for the three strike fighter squadrons
    showed their senior enlisted manning levels were less than 80 percent of BA. The
    reports showed that VFA-14, VFA-94, and VFA-97 had senior enlisted manning
    levels of 76 percent, 63 percent, and 72 percent of BA, respectively.

    According to Navy policy, a unit is adequately manned and deployable if it meets
    the minimum personnel readiness level of C-2. The Navy had not established a
    minimum manning level, based on NMP or BA, for senior enlisted personnel.

     Senior Enlisted Personnel. Senior enlisted personnel (E-7s, E-8s, and E-9s)
    occupy key leadership positions and are responsible for the supervision,
    mentoring, professional development, and training of junior enlisted personnel.
    Senior enlisted personnel lead and manage the enlisted personnel resources of the
    Navy. As such, senior enlisted personnel are responsible for, have the authority
    to accomplish, and are held accountable for leading junior enlisted personnel and
    applying their skills to tasks that enable mission accomplishment.


Manning Policy and Procedures
    Senior enlisted warfighting positions were less than 80 percent filled because
    Navy policy and procedures lack requirements that would help ensure those
    positions are filled to an acceptable level. Specifically, Navy policy does not
    clearly define acceptable senior enlisted manning levels, which would help ensure
    deficiencies are identified; does not require senior enlisted manning deficiencies
    to be resolved prior to deployment; and does not require senior enlisted manning
    levels to be tracked and reported.

    Resolution of Manning Deficiencies. The Fleet Placement Policy requires that
    manning deficiencies be resolved only if they degrade a unit’s mission capability.
    The Navy’s assessment criteria for determining a unit’s personnel readiness to
    perform its mission (its overall SORTS readiness level) does not specifically
    include the manning levels of senior enlisted positions. In addition, the Fleet
    Placement Policy does not specifically require an MCA to correct a unit’s senior


                                         6
            enlisted manning deficiencies. The Fleet Placement Policy only requires that a
            unit have a minimum SORTS readiness level of C-2.

            EPMAC can request extraordinary manning actions to resolve manning
            deficiencies. However, those actions are not always successful because the
            actions are geographically restricted. Those extraordinary actions include
            “diverts” and “crossdecks,” 7 which are restricted to personnel already assigned to
            a geographical area. Often, diverts and crossdecks have a very limited impact for
            geographically isolated units.

            One official at Strike Fighter Wing, U.S. Pacific Fleet stated that “the Navy’s
            current policy and distribution system does not work for isolated stations, such as
            Lemoore.” Another squadron at Naval Air Station Lemoore experienced similar
            problems, as well as increased aviation ground mishaps8 and increased incidences
            of nonjudicial punishment,9 but was not included in our judgmental sample
            because it had not deployed in support of OIF (see Appendix C).

            Manning Deficiency Tracking and Reporting Mechanism. Although Navy
            policies and procedures do not require a unit to track its senior enlisted manning
            level or to report deficiencies, commanders may use the Predeployment Personnel
            Manning Assistance Report to notify EPMAC and the appropriate MCA of
            manning deficiencies. In addition, units may use an Enlisted Manning Inquiry
            Report that includes a commanding officer’s opinion that a manning deficiency
            has a significant effect on unit readiness. The reporting mechanism is in place,
            but Navy manpower and personnel guidance does not require units meeting the
            minimum SORTS readiness level of C-2 to track or report manning deficiencies.
            Further, if senior enlisted personnel vacancies do not affect a unit’s SORTS
            readiness level, MCAs do not consider filling them a priority.




Conclusion
            Navy units deployed in support of OIF with vacant senior enlisted warfighting
            positions, exposing junior enlisted personnel to less senior supervision and
            direction in applying their skills to mission accomplishment.



7
    A divert is the reassignment of a prospective gain of one unit to another unit, usually in the same
    geographic area and with the same type of duty (sea duty to another sea duty). A crossdeck is when an
    enlisted member already assigned to a unit is transferred to a unit belonging to a command having a
    significant degradation in mission capability caused by a manning deficiency and a divert is not available.
8
    An aviation ground mishap is an event in which the intent for flight did not exist but a reportable injury
    occurred, a DoD aircraft or unmanned aerial vehicle was lost, or more than $20,000 damage was
    sustained.
9
    A nonjudicial punishment under the Uniform Code of Military Justice is discipline rendered through
    formal administrative proceedings established within an offender’s chain of command rather than through
    the penal system.



                                                         7
    Command personnel and personnel specialists at the units visited stated that
    senior enlisted manning deficiencies can go unrecognized in the SORTS
    assessment and can have a dramatic effect on command readiness even if the
    unit’s overall SORTS readiness level is C-1 or C-2.

    Commanders of the squadrons we visited in geographically isolated areas all
    indicated that shortages of senior enlisted personnel negatively affected the
    squadron’s ability to supervise junior enlisted personnel and monitor maintenance
    programs. Those shortages also resulted in the squadron’s senior enlisted
    personnel having increased workloads. Officials at one squadron described their
    senior enlisted personnel as “task saturated.” The increased workloads in turn
    reduced the time senior enlisted personnel had to mentor junior enlisted
    personnel. In addition, junior enlisted personnel (E-5s and E-6s) were
    prematurely forced into senior enlisted roles, drawing them away from their own
    responsibilities.


Management Initiatives
    Perform to Serve. In February 2003, the Chief of Naval Operations stated that
    some ratings are overmanned while others “are in critical need of Sailors” when
    he announced the impending March 2003 start of the “Perform to Serve Policy”
    aimed at correcting those inventory imbalances. The policy is a new long-term
    “Navy Force Shaping” initiative that seeks to “match enlisted staffing with
    mission requirements, thereby reducing those imbalances which significantly
    affect career progression and advancement opportunities of enlisted personnel and
    that have a negative impact on mission readiness and Fleet capabilities.”

     Aviation Forces Individual Readiness Moves Program. In March 2004, the
    Commander, Naval Air Forces instituted the Aviation Forces Individual
    Readiness Moves Program (the Moves Program) to resolve critical manning
    deficiencies that are not corrected through normal distribution processes. The
    Moves Program defines a minimum personnel manning level, which refines the
    SORTS readiness level, and establishes policy to allow moves from one
    geographical location to another geographical location (a forced move). Notably,
    a unit’s manning level of senior enlisted personnel is one of the criteria for
    allowing a forced move.


Recommendations
    1. We recommend that the Vice Chief of Naval Operations direct the appropriate
    Deputy Chiefs of Naval Operations to revise the criteria for assessing unit
    readiness to include the manning level of senior enlisted personnel (E-7s, E-8s,
    and E-9s) as a separate category. The change should be coordinated with the
    Commanding Officer, Navy Center for Tactical Systems Interoperability, who is
    the primary review authority for Navy Tactics, Techniques, and
    Procedures 1-03.3, “Status of Resources and Training System (SORTS) Joint
    Report-Navy,” Revision A, March 2001.


                                        8
    2. We recommend that the Deputy Chief of Naval Operations (Manpower and
    Personnel)/Chief of Naval Personnel review and update Navy manpower and
    personnel guidance to:

            a. Clearly define acceptable senior enlisted manning levels by
    establishing a minimum senior enlisted manning level, based on Navy Manning
    Plans or billets authorized, as the baseline for identifying senior enlisted manning
    deficiencies that would require immediate action.

          b. Require senior enlisted manning deficiencies to be resolved prior to
    deployment.

           c. Require units to track and report senior enlisted manning levels.

            d. Establish a monitoring program and plans of action to alleviate senior
    enlisted manning deficiencies.

    3. We recommend that the Commander, Manning Control Authority Atlantic and
    the Commander, Manning Control Authority Pacific identify and correct senior
    enlisted manning deficiencies within the U.S. Atlantic Fleet and the U.S. Pacific
    Fleet, respectively, in accordance with standards set as a result of
    Recommendations 1. or 2.


Management Comments
    Comments from the Navy were received too late to be incorporated into the final
    report. If the Navy does not submit additional comments, we will consider the
    comments received as the response to the final report.




                                         9
Appendix A. Scope and Methodology
   We reviewed the processes and procedures the Navy uses in the assignment of
   personnel. In addition to personnel in the 14 units visited (see Appendix B), we
   visited or contacted officials from the following Navy organizations:

          •   the Deputy Chief of Naval Personnel/Navy Personnel Command,

          •   EPMAC,

          •   the Office of the Assistant Secretary of the Navy (Manpower and
              Reserve Affairs), and

          •   U.S. Atlantic Fleet and U.S. Pacific Fleet headquarters and
              subordinate units.

   We reviewed applicable regulations, directives, instructions, policies, and articles,
   dated from August 1954 through September 2003, related to the assignment
   process and mobilization of Navy forces. We visited or contacted officials at
   Navy headquarters level, the Navy Personnel Command, and EPMAC to
   determine the Navy assignment process, including their organizations’ roles and
   responsibilities. We interviewed officials at U.S. Atlantic Fleet and U.S. Pacific
   Fleet headquarters and at subordinate units to determine the process used to
   identify personnel operating strengths, manning deficiencies, and the method used
   to request personnel to correct identified deficiencies of deploying units.

    Our audit focused on the review of 14 units, at 5 locations, that deployed in
   support of OIF. See Appendix B for a list of the units visited and their locations.
   Specifically, we determined whether those units had deployed with vacant senior
   enlisted warfighting positions. We analyzed EPMAC-provided deployment status
   reports for enlisted personnel dated from March 2003 through December 2003 to
   determine senior enlisted manning levels.

   We performed this audit from July 2003 through September 2004 in accordance
   with generally accepted government auditing standards. Because of resource
   constraints, we limited our scope to the Navy for this report. A previous report
   addresses the Marine Corps (see page 13).

   Use of Computer-Processed Data. We relied on computer-processed data
   contained in Navy databases established to track military personnel assignments
   without performing tests of those databases’ general and application controls to
   confirm the reliability of the data. Specifically, our conclusions on senior enlisted
   manning levels of Navy surface and aviation units deploying in support of OIF
   were based on each unit’s BA, NMP, and the number of assigned personnel. The
   computer-processed data was obtained from EPMAC officials. In Naval Audit
   Service Report No. N2003-0026, “Verification of the Reliability and Validity of
   the Department of the Navy’s Readiness Information System (RIS) Data,”
   February 13, 2003, the Navy reported concerns with the Readiness Information
   System data. As stated in the Navy report, however, that system is the principal


                                        10
    source for data on unfilled authorized requirements, which placement officers use
    for assigning enlisted personnel to available positions. Therefore, problems in the
    data would not affect our conclusions.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office (GAO) has identified several high-risk areas in DoD. This
    report provides coverage of the Strategic Human Capital Management high-risk
    area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    EMPAC policies and procedures for enlisted personnel assignments.
    Specifically, we determined whether management policies and procedures had
    been established to manage personnel assignments for deploying units. We also
    reviewed management’s self-evaluation of controls related to personnel
    assignments.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Navy, as defined by DoD Instruction 5010.40. Navy
    management controls for resolving manning deficiencies were not adequate to
    ensure that deploying units’ senior enlisted positions were filled to an acceptable
    level. The recommendations, if implemented, will correct the identified
    weaknesses and could result in the Navy more effectively and efficiently
    accomplishing its missions. A copy of the report will be provided to the senior
    official responsible for management controls in the Navy.

    Adequacy of Management’s Self-Evaluation. Navy officials had not developed
    a formal plan to identify or solve senior enlisted manning deficiencies and,
    therefore, did not identify or report the material management control weaknesses
    identified by the audit.


Prior Coverage
    During the last 5 years, the GAO, the Inspector General of the Department of
    Defense (IG DoD), and the Naval Audit Service have issued reports discussing
    various aspects of the management of Navy personnel distribution. Unrestricted
    GAO reports can be accessed over the Internet at http://www.gao.gov.
    Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports. Unrestricted Naval Audit Service reports
    can be accessed over the Internet at http://www.hq.navy.mil/NavalAudit.


                                         11
GAO
       GAO Report No. GAO-03-921, “DoD Actions Needed to Improve the Efficiency
       of Mobilizations for Reserve Forces,” August 2003

IG DoD
       IG DoD Report No. D-2004-086, “Management of Marine Corps Enlisted
       Personnel Assignments in Support of Operation Iraqi Freedom,” June 16, 2004

Navy
       Naval Audit Service Report No. N2003-0047, “Use of Navy Recruiters to
       Perform Administrative and Support Jobs,” May 6, 2003

       Naval Audit Service Report No. N2003-0026, “Verification of the Reliability and
       Validity of the Department of the Navy’s Readiness Information System (RIS)
       Data,” February 13, 2003

       Naval Audit Service Report No. N2003-0012, “Verification of the Reliability and
       Validity of the Department of the Navy’s Total Force Manpower Management
       System (TFMMS) Data,” November 8, 2002

       Naval Audit Service Report No. N2000-0004, “Funding and Requirements
       Determination for Temporary Duty Under Instruction as Related to Permanent
       Change of Station Moves,” October 19, 1999




                                          12
Appendix B. Units Visited

                     Location                                 Unit

   Naval Air Station Lemoore             Strike Fighter Squadron Fourteen (VFA-14)

                                         Strike Fighter Squadron Forty-one (VFA-41)

                                         Strike Fighter Squadron Ninety-four (VFA-94)

                                         Strike Fighter Squadron Ninety-seven (VFA-97)

   Naval Air Station North Island        U.S.S. Nimitz (CVN 68)

                                         Helicopter Anti-Submarine Squadron Six (HS-6)

                                         Sea Control Squadron Twenty-nine (VS-29)
                                         Carrier Airborne Early Warning Squadron
   Naval Air Station Point Mugu
                                            One Hundred Seventeen (VAW-117)
   Naval Base San Diego                  U.S.S. Princeton (CG 59)

                                         U.S.S. Fitzgerald (DDG 62)

                                         U.S.S. Bonhomme Richard (LHD 6)

   Naval Station Norfolk                 U.S.S. Harry S. Truman (CVN 75)

                                         U.S.S. Iwo Jima (LHD 7)

                                         U.S.S. Nashville (LPD 13)




                                    13
Appendix C. Strike Fighter Squadron 147
           During our visit to Strike Fighter Wing, U.S. Pacific Fleet in December 2003, we
           learned of another squadron based at Naval Air Station Lemoore that had
           shortages of senior enlisted personnel similar to the squadrons we visited.
           EPMAC manning reports for that squadron, VFA-147, showed its senior enlisted
           manning was at 58 percent of BA in December 2003. VFA-147 was not part of
           our judgmentally selected sample because it had not deployed in support of OIF.
           VFA-147 had deployed as one of eight air squadrons aboard U.S.S. Carl Vinson
           (CVN 70). Vinson was deployed from January 17 to September 19, 2003, to the
           Western Pacific in support of the Global War on Terrorism, specifically to
           provide a stabilizing presence in the Pacific Rim region and the South China Sea.
           March 2003 EPMAC manning reports for VFA-147 showed the squadron’s senior
           enlisted manning was at 68 percent of BA.

           VFA-147 Senior Enlisted Manning Levels. According to squadron officials,
           sustained senior enlisted manning deficiencies for VFA-147 evolved over
           14 months from being a managerial concern to being a safety issue that resulted in
           the issuance of an Aviation Hazard Report* in December 2003. The Aviation
           Hazard Report stated that the squadron’s senior enlisted manning was at
           65 percent of NMP, and its Maintenance Department’s senior enlisted manning
           level was 58 percent of its NMP. Command personnel and personnel specialists
           for the squadron stated that the shortage of senior enlisted personnel had reached
           the point where they would be willing to accept any senior enlisted member,
           regardless of background or specialty.

           Manning Actions. VFA-147 officials reported that they reviewed senior enlisted
           manning to identify deficiencies. Requests to correct those deficiencies were
           submitted through appropriate channels to the MCA and EPMAC. When the
           normal distribution processes did not correct the senior enlisted manning
           deficiencies, VFA-147 officials submitted appropriate correspondence through
           their chain of command to EPMAC and their MCA to alert them of the critical
           manning situation and to gain additional support from the assignment system.

           Effects of Manning Deficiencies. The Commander, VFA-147 stated that the
           senior enlisted manning deficiencies that his squadron sustained for more than a
           year resulted in an increase in the squadron’s ground mishap rate and in the
           number of incidences resulting in nonjudicial punishment. For example, the
           Aviation Hazard Report stated that “during a nine-month decline in CPO [senior
           enlisted] manning, VFA-147’s ground mishap rate increased from an average of
           one event per month to four events per month.” The report also cited the increase
           in nonjudicial punishments, stating: “Over the past six-months, VFA-147 has
           processed 15 NJP [nonjudicial punishment] cases. (During the previous
           six-month period the command processed only 8 NJP cases.)”


*
    Aviation Hazard Reports are an element of the Naval Aviation Safety Program as described in Chief of
    Naval Operations Instruction 3750.6R, “The Naval Aviation Safety Program,” March 1, 2001, as
    amended on November 29, 2001.



                                                     14
According to VFA-147 officials, the squadron successfully completed its
missions during the deployment. However, the commander stated that the
squadron’s shortage of senior enlisted personnel diminished squadron readiness
as well as the ability of senior enlisted personnel to adequately supervise the
personnel under their command. The shortage of senior enlisted personnel also
increased the time required to train new sailors to become proficient in their
rating. Further, the shortages of senior enlisted personnel necessitated the transfer
of maintenance duties to junior enlisted personnel, which the commander stated
increased the risk of accidents.

Barrier to Extraordinary Actions. As provided for within the personnel
distribution system, Naval Air Forces officials executed extraordinary actions to
alleviate the senior enlisted manning deficiencies of its deploying units.
However, those actions did not correct the manning deficiencies identified at
VFA-147. Diverts and crossdecks are restricted to personnel already assigned to
a geographical area and are not effective when several units at a geographically
isolated area have manning deficiencies.




                                     15
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Navy
Vice Chief of Naval Operations
Deputy Chief of Naval Operations (Manpower and Personnel)/Chief of Naval Personnel
  Deputy Chief of Naval Personnel/Commander, Navy Personnel Command
      Commanding Officer, Enlisted Placement Management Center
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Commander, U.S. Fleet Forces Command
  Commander, Naval Air Forces
  Commander, Naval Submarine Forces
  Commander, Naval Surface Forces
Commander, U.S. Atlantic Fleet
  Commander, Naval Air Force, U.S. Atlantic Fleet
  Commander, Submarine Force, U.S. Atlantic Fleet
  Commander, Naval Surface Force, U.S. Atlantic Fleet
  Commander, Manning Control Authority Atlantic
Commander, U.S. Pacific Fleet
  Commander, Naval Air Force, U.S. Pacific Fleet
  Commander, Submarine Force, U.S. Pacific Fleet
  Commander, Naval Surface Force, U.S. Pacific Fleet
  Commander, Manning Control Authority Pacific
Commander, U.S. Naval Forces Central Command
Commander, Naval Construction Forces Command
Commanding Officer, Navy Center for Tactical Systems Interoperability
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force




                                          16
Combatant Commands
Combatant Commander, U.S. Central Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organizations
Office of Management and Budget
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        17
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Readiness and Logistics Support prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Shelton R. Young
Donald A. Bloomer
Richard B. Vasquez
David A. Palmer
Kenneth W. Sokol
Lindsay B. Warner
Elizabeth L.N. Shifflett
